CASE No.

In The Supreme Court of the United States

JAMES SAYLOR,
Petitioner,
v.
TAGGART BOYD,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Eighth Circuit
APPENDIX TO PETITION FOR
WRIT OF CERTIORARI
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

I. TABLE OF
CONTENTS

APPENDIX A ............................................... 1A
(December 23, 2019, Order Denying 28
U.S.C. § 2254 Petition)
APPENDIX B ............................................. 12A
(June 2, 2020, Judgment Denying Certificate
of Appealability)
APPENDIX C ............................................. 14A
(August 24, 2020, Order Denying Panel
Rehearing)

1A
APPENDIX A
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
JAMES M. SAYLOR,
Petitioner,
v.

8:17CV442

JEFF WOOTEN,
Respondent.
MEMORANDUM AND ORDER
This matter is before the Court on petitioner
James M. Saylor’s (“Saylor”) Second Amended
Petition under 28 U.S.C. § 2254 for a Writ of
Habeas Corpus by a Person in State Custody
(Filing No. 40) and respondent Jeff Wooten’s
(“Wooten”) Motion for Summary Judgment (Filing
No. 46). Saylor is an inmate at the Lincoln
Correctional Center (“LCC”) within the Nebraska
Department of Correctional Services. Saylor has
identified Wooten as the Interim Warden of LCC.
For the reasons stated below, Wooten’s motion is
granted, and Saylor’s petition is denied.

2A
I. BACKGROUND1
On April 27, 1984, Saylor’s grandmother was
found dead in her home. A neighbor saw a young,
white male leave the house early that morning,
hop the fence, and run away. As the police began
to investigate, two of Saylor’s friends told the
police that before the death, Saylor told them he
had thought about killing his grandmother to get
an expected inheritance. With some coaxing from
the police, the friends agreed to wear a wire and
meet with Saylor at his mother’s home. After a few
beers,
Saylor
made
some
incriminating
statements, including that he had hired someone
to kill his grandmother.
Saylor and his alleged accomplice, Michael Sapp
(“Sapp”), were arrested and charged with firstdegree murder. Saylor moved to suppress his
statements to his friends to no avail. Before trial,
Sapp pled guilty to lesser charges. Saylor did not
reach a full plea agreement with the prosecutor
but did agree to waive his right to a jury trial and
proceed before a judge on stipulated facts in
_______________
1Unless

otherwise noted, the background is drawn
from the parties’ submissions and the Nebraska
Supreme Court’s opinions in State v. Saylor, 392
N.W.2d 789, 791 (Neb. 1986) (direct appeal), and
State v. Saylor, 883 N.W.2d 334, 340 (Neb. 2016)
(post-conviction appeal).

3A
exchange for the state reducing the charge against
him to second-degree murder. The agreement also
allowed Saylor to appeal the denial of his motion
to suppress.
At trial, the judge received the recordings of
Saylor’s incriminating statements in evidence over
Saylor’s objection. The parties also stipulated that
David Kutsch, M.D. (“Dr. Kutsch”), the pathologist
who performed the autopsy, would testify the
cause of death was respiratory arrest, “most
probably” caused by smothering but possibly the
result of natural causes. Saylor was convicted and
sentenced to ten years to life.
Saylor appealed, arguing his incriminating
statements should have been suppressed. The
Nebraska Supreme Court rejected Saylor’s
arguments and affirmed his conviction on August
29, 1986. Saylor’s subsequent petition for a writ of
certiorari was denied. See Saylor v. Nebraska, 481
U.S. 1038 (1987).
On August 22, 2012, Saylor filed a pro se Verified
Motion for Postconviction Relief (Filing No. 45-3)
pursuant to Neb. Rev. Stat. § 29-3001 et seq. With
the help of counsel, he amended his motion
February 3, 2013 (Filing No. 40-2). In his amended
motion, Saylor alleged ineffective assistance of
counsel at trial and on appeal, prosecutorial
misconduct, and prejudicial conduct by the trial
judge. The district court held an evidentiary

4A
hearing that lasted several days. During the
hearing, the district court heard testimony from
Saylor, one of his attorneys,2 the prosecutor,
several of the investigators, and others, including
Michael Baden, M.D. (“Dr. Baden”) and Werner
Spitz, M.D. (“Dr. Spitz”), two forensic pathologists
Saylor hired to review the medical findings in the
case. Both opined that Saylor’s grandmother likely
died of natural causes.
One testified that neither smothering nor a
chronic lung condition could be eliminated as the
cause of death, but that lung disease was more
likely given her medical history and the
surrounding circumstances. The other agreed with
Dr. Kutch’s 1984 deposition testimony that
whether death resulted from natural causes or
smothering was “indeterminate.” Drs. Baden and
Spitz also questioned some of Dr. Kutch’s other
methods and findings. The district court also took
evidence that Saylor attempted to solicit the
murders of his former friends to prevent the use of
his recorded statements to them.
The district court denied relief, finding that any
evidence of prejudice was overwhelmed by Saylor’s
admission that he hired someone to kill his
_______________
2The

other had died.

5A
grandmother and the evidence that he tried to
solicit the murder of two witnesses against him.
The district court also noted Sapp “was waiting in
the wings to testify against [Saylor].”
Saylor again appealed to the Nebraska Supreme
Court, raising more than eleven assignments of
error. See Saylor, 883 N.W.2d at 340. The Supreme
Court again affirmed, concluding, among other
things, that “Saylor’s counsel was not ineffective
by agreeing to a stipulated trial in an attempt to
reduce the first degree murder charge” and that
Saylor’s assigned errors relating to prejudice
lacked merit. Id.at 348-50. On October 2, 2017, the
United States Supreme Court denied Saylor’s
petition for a writ of certiorari. See Saylor v.
Nebraska, 583 U.S. ___, 138 S. Ct. 167, reh’g
denied, 583 U.S. ___, 138 S. Ct. 571 (2017).
On November 15, 2017, Saylor filed a pro se
Petition for a Writ of Habeas Corpus in this Court.
After a couple of amendments and changes of
counsel, Saylor filed the present Second Amended
Petition. On April 18, 2019, Saylor moved (Filing
No. 43) for an order directing Wooten to show
cause why his petition should not be granted. After
conducting a preliminary review, the magistrate
judge assigned to this case issued an Order (Filing
No. 44) granting Saylor’s motion and ordering
Wooten to “answer or otherwise respond to
Saylor’s Second Amended Petition.”

6A
On September 27, 2019, Wooten moved for
summary judgment. Saylor opposes that motion.
II. DISCUSSION
A. Propriety of a Motion for Summary
Judgment
In opposing Wooten’s motion, Saylor first argues
“a motion for summary judgment is not
[procedurally]
proper
in
a
§
2254
proceeding.”Saylor further contends that because
the motion is not a proper answer, the Court
should deem the allegations in Saylor’s petition as
admitted. Neither point is convincing. The
magistrate judge ordered Wooten to “answer or
otherwise respond” to the petition. He did that by
filing a motion for summary judgment. Rule 12 of
the Rules Governing § 2254 Cases in the United
States District Courts provides that the Federal
Rules of Civil Procedure “may be applied to a” §
2254 proceeding “to the extent that they are not
inconsistent with any statutory provisions or these
rules.” And the Eighth Circuit and this Court
routinely consider motions for summary judgment
pursuant to Federal Rule of Civil Procedure 56 in
appropriate habeas cases. See, e.g., Risdal v.
Mathes, 340 F.3d 508, 510 (8th Cir. 2003); Haynes
v. Hansen, No. 8:19CV87, 2019 WL 2582559, at *1
(D. Neb. June 24, 2019). The court therefore rejects
Saylor’s assertion that a motion for summary
judgment is categorically improper. What’s more,
Saylor has not shown that a motion for summary

7A
judgment is somehow improper or unworkable
under either the habeas rules or the particular
facts of this case. To the contrary, the Court finds
the record in this case is sufficient to allow the
Court to properly evaluate the pertinent issues the
parties
raise—Wooten’s
statute-of-limitation
argument and Saylor’s gateway actual-innocence
claim.
B. Actual-Innocence Exception
Saylor’s petition is governed by the Antiterrorism
and Effective Death Penalty Act of 1996
(“AEDPA”), Pub. L. 104–132, 110 Stat. 1214
(1996). The thrust of Wooten’s motion is that
Saylor’s petition is “wildly” outside AEDPA’s oneyear statute of limitation for such petitions. See 28
U.S.C. § 2244(d)(1). Saylor acknowledges his
petition is “otherwise untimely” but asserts an
exception applies because he can make a gateway
actual-innocence claim as recognized by the
Supreme Court in McQuiggin v. Perkins, 569 U.S.
383, 386 (2013). In McQuiggin, the Supreme Court
held “that actual innocence, if proved, serves as a
gateway through which a petitioner may pass,”
despite “expiration of the statute of limitations.”
Id. But “tenable actual-innocence pleas are rare,”
id., and an “[u]nexplained delay in presenting new
evidence” can weaken the petitioner’s claim, id. at
399.To succeed, Saylor must persuade this
“[C]ourt, that, in light of the new evidence, no
juror, acting reasonably, would have voted to find
him guilty beyond a reasonable doubt.” Id.at 386

8A
(quoting Schlup v. Delo, 513 U.S. 298, 329 (1995)).
In other words, Saylor “must show that it is more
likely than not that no reasonable juror would
have convicted him in the light of the new
evidence.” Schlup, 513 U.S. at 327; accord McCoy
v. Norris, 125 F.3d 1186, 1191 (8th Cir. 1997)
(applying the same standard to a case tried to a
judge). Saylor does not meet this demanding
standard. As he did in state court, Saylor cites as
grounds for post-conviction relief the “new”
opinion testimony from Drs. Baden and Spitz that
Saylor’s grandmother more likely died of natural
causes than from smothering. Agreeing with the
state post-conviction court that Dr. Kutch’s
stipulation testimony was “weak and inconsistent”
and asserting “the case against [him] was always
circumstantial,” Saylor contends “all [he] needed
was one juror to accept Dr. Baden and/or Spitz’s
proposed testimony.” As Saylor sees it, “had the
testimony of Drs. Baden and Spitz been available
at the time of [his] trial, it is more likely than not
that at least one juror would have treated Dr.
Baden and Spitz’s testimony as reasonable doubt
of Saylor’s guilt.” Saylor misunderstands the
standard for an actual-innocence claim. To prove
his claim, Saylor need not merely prove that one
juror might have had a reasonable doubt based on
his new evidence, he must persuade the Court
“that, in light of the new evidence, no juror, acting
reasonably, would have voted to find him guilty
beyond a reasonable doubt.” McQuiggin, 569 U.S.
at 386 (emphasis added) (quoting Schlup, 513 U.S.
298, 329 (1995)). He has not done that. The Court

9A
is simply not persuaded that Saylor’s proffered
medical evidence—which does not definitively rule
out smothering as the cause of death—was so
strong or decisive as to make it unreasonable for a
judge conducting a trial on stipulated facts to rely
on Saylor’s incriminating statements and the
mountain of other compelling evidence against
him and find him guilty of second-degree murder.
See McCoy, 125 F.3d at 1191-92 (concluding the
petitioner could not “make his way through the
actual innocence gateway” because even if “new,”
his “evidence would not have affected [the
judge’s]credibility determination, or his [guilty]
verdict”). It is not unreasonable to think Saylor’s
conviction had far more to do with his own
startling admissions and conduct and the other
corroborating evidence of murder than with any
indeterminacy in the medical evidence. See
id.Because Saylor’s “new” evidence is insufficient
under the circumstances of this case “to show that,
had it been presented at trial, no reasonable
[factfinder] would have convicted [him],” his
petition is denied.3 McQuiggin, 569 U.S. at 401.
_______________
Saylor also makes a brief legal argument based
on the corpus delecti rule as described in State v.
Plastow, 873 N.W.2d 222, 226 (S.D. 2015). His
reliance on Plastowis misplaced. Although Saylor
cites Plastow as establishing Nebraska law at the
time of his conviction, the case was actually
decided by the South Dakota Supreme Court on
3

10A
C. Certificate of Appealability
“[A] state prisoner seeking a writ of habeas corpus
has no absolute entitlement to appeal a district
court’s denial of his petition.” Miller-El v. Cockrell,
537 U.S. 322, 335 (2003) (citing 28 U.S.C. § 2253).
Before he can take an appeal, the petitioner must
have a certificate of appealability (“COA”). Id.at
336; Fed. R. App. P. 22(b). “When the district court
denies a habeas petition on procedural grounds
without reaching the prisoner’s underlying
constitutional claim, a COA should issue when the
prisoner shows, at least, that jurists of reason
would find it debatable whether the petition states
a valid claim of the denial of a constitutional right
and that jurists of reason would find it debatable
whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S.
_______________
now-discarded principles of South Dakota law.
Id. at 229-31. At any rate, “‘actual innocence’
means factual innocence, not mere legal
insufficiency.” Bousley v. United States, 523 U.S.
614, 623 (1998); see also Embrey v. Hershberger,
131 F.3d 739, 741 (8th Cir. 1997) (en banc) (“[I]n
noncapital cases the concept of actual innocence is
‘easy to grasp’ because ‘it simply means the person
didn’t commit the crime.’” (quoting United States
v. Richards, 5 F.3d 1369, 1371 (10th Cir. 1993))).
3

11A
473, 484 (2000). Having carefully reviewed the
record in this case, the Court concludes Saylor has
not made that showing. No COA will issue. Based
on the foregoing, IT IS ORDERED:
1. Respondent Jeff Wooten’s Motion for Summary
Judgment (Filing No. 46) is granted.
2. Petitioner James M. Saylor’s Second Amended
Petition under 28 U.S.C. § 2254 for a Writ of
Habeas Corpus by a Person in State Custody
(Filing No. 40) is denied.
3. This case is dismissed with prejudice.
4. No certificate of appealability shall issue.
5. A separate judgment shall be entered in this
case. Dated this 23rd day of December 2019.
BY THE COURT:
Robert F. Rossiter, Jr.
United States District Judge

12A
APPENDIX B
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
20-1133
James Saylor
Plaintiff – Appellant
v.
Taggart Boyd
Defendant – Appellee
Appeal from U.S. District Court for the District of
Nebraska - Omaha(8:17-cv-00442-RFR)
JUDGMENT
Before COLLOTON, KELLY, and STRAS, Circuit
Judges. This appeal comes before the court on
appellant's application for a certificate of
appealability. The court has carefully reviewed
the original file of the district court, and the
application for a certificate of appealability is
denied. The appeal is dismissed.
June 02, 2020
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.

13A
/s/ Michael E. Gans

14A
APPENDIX C
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
20-1133
James Saylor
Plaintiff – Appellant
v.
Taggart Boyd
Defendant – Appellee
Appeal from U.S. District Court for the District of
Nebraska - Omaha(8:17-cv-00442-RFR)
ORDER
The petition for rehearing by the panel is denied.
August 24, 2020
/s/ Michael E. Gans

